                 Fiscal Year 2004 Evaluation of Information Security

                          at the Railroad Retirement Board 

                        Report No. 04-11, September 30, 2004 


                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) evaluation of
information security at the Railroad Retirement Board (RRB).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid out nearly $9 billion in benefits during fiscal
year (FY) 2003.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity, and the end-user
computing system, which supports the agency’s local and wide area networks.

The major application systems correspond to the RRB’s critical operational activities:
payment of RRA and RUIA benefits, maintenance of compensation and service records,
administration of Medicare entitlement, financial management, personnel/payroll, and
the RRB’s financial interchange with the Social Security Administration. Each major
application system is comprised of one or more component systems.

This evaluation was conducted pursuant to the E-Government Act of 2002 (P.L. 107-
347), Title III, the Federal Information Security Management Act of 2002 (FISMA).
FISMA, like its predecessor the Government Information Security Reform Act (GISRA),
establishes program management and evaluation requirements including:

      •   annual agency program reviews,
      •   Inspector General security evaluations,
      •   an annual agency report to the Office of Management and Budget (OMB), and
      •   an annual OMB report to Congress.

Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide integrity, confidentiality and availability. FISMA requires agencies to report
significant deficiencies in policy, procedure or practice as material weaknesses in
internal control in reports issued pursuant to the Federal Managers’ Financial Integrity
Act.


                                            1

The OIG conducted security evaluations pursuant to GISRA during FY 2001 and FY
2002 and FISMA in FY 2003. These evaluations disclosed weaknesses throughout the
RRB’s information security program. The OIG cited the agency with material
weaknesses due to significant deficiencies in access controls in the data processing
and end-user computing environments and in the training provided to staff who have
significant security responsibilities. Evaluations conducted during FY 2000 and FY
2001 by specialists under contract to the OIG had disclosed the need for improvements
in security controls in both the data processing and end-user computing support
systems.


Objective, Scope and Methodology

The objective of this evaluation was to fulfill the requirements of FISMA by assessing
the effectiveness of the RRB’s information system security program and practices
during FY 2004.

In order to accomplish our objective, we monitored agency efforts to implement
corrective actions in response to the findings and recommendations presented in prior
OIG audit reports as well as third-party evaluations conducted at the request of the OIG
including:

   •	 “Information Systems Security Assessment Report,” Defensive Information
      Operations Group, National Security Agency, June 28, 2000;
   •	 “Review of RRB’s Compliance with the Critical Infrastructure Assurance
      Program,” August 9, 2000, OIG Report #00-13;
   •	 “Review of Document Imaging Railroad Unemployment Insurance Act
      Programs,” November 17, 2000, OIG Report #01-01;
   •    “Site Security Assessment,” Blackbird Technologies, Inc., July 20, 2001;
   •    “Security Controls Analysis,” Blackbird Technologies, Inc., August 17, 2001;
   •	 “Review of Information Security at the Railroad Retirement Board,” February 5,
      2002, OIG Report #02-04;
   •	 “Review of the Railroad Retirement Board’s Controls Over the Access,
      Disclosure, and Use of Social Security Numbers by Third Parties,” August 26,
      2002, OIG Report # 02-11;
   •	   “Fiscal Year 2002 Evaluation of Information Security at the Railroad Retirement
        Board,” August 27, 2002, OIG Report #02-12;
   •	   “Evaluation of the Self-Assessment Process for Information System Security,”
        December 27, 2002, OIG Report #03-02;
   •	 “Evaluation of RRB E-Government Initiative: RUIA Contribution Internet
      Reporting and Payment,” December 27, 2002, OIG Report #03-03;
   •	   “Review of the Railroad Retirement Board’s PIN/Password System for On-Line
        Authentication,” September 8, 2003, OIG Report #03-09;
                                            2

   •	 “Review of the Systems Development Life Cycle for End-User Computing,”
      September 8, 2003, OIG Report #03-10; and

   •	 “Fiscal Year 2003 Evaluation of Information Security at the Railroad Retirement
      Board,” September 15, 2003, OIG Report #03-11.

We also considered the findings and recommendations reported as a result of the
following evaluations conducted during FY 2004:

   	 “Review of Mainframe Access Controls at the Application Level: Federal
      Financial System,” September 07, 2004, OIG Report #04-07;
   •	 “Review of Mainframe Access Controls at the Application Level: RRB-Developed
      Applications Controlled by ACF2 and IDMS,” September 07, 2004, OIG Report
      #04-08; and
      “Review of Mainframe Access Controls at the Application Level: Program
       Accounts Receivable System,” September 09, 2004, OIG Report #04-09.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters during May through August 2004.




                                          3

                                    RESULTS OF EVALUATION 


Agency management continues the process of strengthening information security.
However, significant deficiencies in access controls and program management continue to
exist. As a result, information security remains an area of material weakness in internal
control.

The OIG’s conclusions with respect to information system security are based on previously
reported weaknesses in training and local area network access controls for which
corrective action has not been completed, and FY 2004 evaluations that disclosed
continued weaknesses in the agency’s mainframe access controls. Our findings with
respect to the implementation status of prior recommendations for corrective action and a
summary of weaknesses identified during our FY 2004 evaluations follow.


Status of Prior Recommendations for Corrective Action

During FY 2004, agency management has continued to implement OIG recommendations
for improved information security. The OIG monitored 132 recommendations for
corrective action. As of March 31, 2004, 84 recommendations had been fully
implemented, 11 had been rejected and 37 were pending further agency action.1
However, the RRB has not completed the corrective action needed to eliminate the
previously reported deficiencies in training and access controls that were the basis for the
OIG’s original finding of material weakness.

In addition, reviews conducted during FY 2004 indicate that completed corrective actions
typically address only the specific situation cited by the OIG. Agency managers have not
extended the underlying principles to the related elements of the information security
program as a whole. In some instances, the OIG’s recommendation was construed very
narrowly and, as a result, the agency’s corrective action had virtually no effect.

For example, BIS previously reported implementation of an OIG recommendation to
“include all systems in the review and re-authorization process and mandate the frequency
of the process for each mainframe system.”2 OIG evaluations conducted during FY 2004
revealed that although scheduled, some re-authorizations were not performed. Similarly,
agency action to “implement security logs as an effective control by ensuring that all
critical activities are subject to logging…” did not include all systems.3

A summary of the status of audit recommendations pertaining to information system
security is presented in Appendix I.

1
  These totals do not include recommendations presented in OIG Reports #04-07, #04-08, #04-09 which 

were finalized after March 31, 2004 and for which the status of implementation was not monitored during FY 

2004. 

2
  OIG Report 02-04, Recommendation #22 

3
  OIG Report 02-04, Recommendation #10 



                                                     4

Evaluations Conducted During FY 2004

During FY 2004, the OIG continued to provide oversight to the RRB’s information security
program by conducting reviews of mainframe access controls at the application level. We
assessed the effectiveness of agency procedures and controls in limiting and detecting
access to the major application systems that support financial management, RRA and
RUIA benefit payment operations.

In general, audit testing disclosed that the agency’s review and re-authorization process is
not adequate to ensure that users of these major application systems are limited to only
the privileges required for the performance of their current job. We also observed that
system features designed to ensure accountability for changes to certain security settings
have not been implemented, and that the approval settings that control transaction
processing and data entry are not consistently applied.4

In-House Developed Applications

The approximately 45 systems that support RRA and RUIA benefit payment operations
were developed in-house by the RRB’s Bureau of Information Services. Security for these
systems is controlled by commercial software products: CA-ACF2, an access control
software package, or IDMS, a database management system.

We performed tests, on a sample basis, of the access privileges of the 1,104 users of
these systems. Our tests disclosed that the existing review and re-authorization process
is not adequate to ensure that system users retain only those privileges required for their
current jobs. We also identified weaknesses in the implementation of segregation of
duties that permit some users to perform too many key activities. In addition, one system
was initially developed without a “Read-Only” access option for those who do not require
higher-level privileges. In this case, access cannot be appropriately restricted.

Federal Financial System

The Federal Financial System (FFS), which includes integrated subsystems for budget
execution and procurement management, is a part of the RRB’s major application system
that supports financial management. FFS security is controlled by the security functions
built into the system.

We performed tests, on a sample basis, of the access privileges of 527 users of this
system which disclosed that existing controls are not adequate to ensure that FFS users
have been limited to only those system privileges required for the performance of their
current jobs. At the time of our fieldwork, the agency had not performed a re-authorization
review of FFS access privileges for nearly five years. The last such review had been


4
   “Review of Information Security at the Railroad Retirement Board,” February 5, 2002, OIG Report #02-04
included recommendations for improvement to the review and re-authorization process and more effective
use of system logging features.

                                                    5

conducted in 1999; a review scheduled for FY 2003 was not performed. The agency
initiated a review after the end of OIG fieldwork in 2004.

We also observed that FFS features designed to ensure accountability for changes to
certain security settings had not been implemented, and we questioned the level of
assurance provided by current document approval settings.

Program Accounts Receivable System

The Program Accounts Receivable (PAR) system, part of the Financial Management
major application system, supports financial accounting for RRA and RUIA program debt.
The PAR system is not integrated with FFS and has its own, separate, built-in security
functions.

We performed tests, on a sample basis, of the access privileges of 669 users of this
system which disclosed that existing controls are not adequate to ensure that PAR system
users have been limited to only those system privileges required for the performance of
their current jobs.

Our fieldwork disclosed that the agency had not performed a re-authorization review for
the PAR system since FY 1998; the review scheduled for FY 2003 was not performed.
Although a re-authorization review was performed during FY 2004, the information
provided to supervisors did not include sufficient detail about the specific privileges
granted to individual employees to provide a basis for an effective re-authorization
decision.

We also observed that PAR system features designed to ensure accountability for
changes to certain security settings had not been implemented and that the approval
settings that control transaction processing and data entry were not consistent across
programs.

CA-ACF2 Controls Could Be Strengthened

The RRB has not implemented adequate controls to ensure that CA-ACF2 security
settings implement management’s policies.

The RRB has established policies and procedures that govern the key features of system
security including password management, implementation of upgrades, and the restriction
of special privileges. We observed weaknesses in the management of passwords and
inactive accounts as well as the implementation of global system options and special
privileges that, when taken together, undermine the effectiveness of the RRB’s information
security program.

Initial access to the RRB’s mainframe computer is controlled by CA-ACF2. CA-ACF2
security features include both global system options, which apply to all system users and
special, high-level privileges for some users. System accounts may be granted to
individual users or set-up as a “generic “ to facilitate use by groups of individuals or
system-to-system communication.
                                             6

Password and Account Management

The RRB has not established a policy requiring individual or generic inactive accounts to
be removed from the system. In addition, many generic accounts are established with a
password that never expires. The lack of adequate policy and related controls and
procedures to govern account management has resulted in a large number of system
users, both individual and generic, that have inactive accounts and/or passwords that
never expire. Our review disclosed that of 485 generic accounts, 188 do not carry a
password expiration requirement and 143 have not been used in over one year.

Global System Options

BIS did not implement recent enhancements to the global system options that would bring
system operation more closely in compliance with agency password management policy
until those settings were identified by the OIG. In August 2003, the RRB upgraded its
version of the CA-ACF2 software. The upgraded software provided for a closer fit
between the agency’s password policy and the security configurations within CA-ACF2.
However, BIS had not implemented the new features.

Our review of global system settings also disclosed that the RRB has not implemented all
settings required for compliance with the information security requirements of the Internal
Revenue Service. The Internal Revenue Service mandates certain security configurations
when Federal tax information is maintained in a system.

Special Privileges

BIS has not implemented policies and procedures to ensure that adequate documentation
is maintained to support decisions to grant or modify the special privileges within CA-
ACF2.

Individuals who hold various special privileges are able to perform high risk activities within
the system. During our review, we questioned the adequacy of documentation to support
special privileges granted, including five individuals whose special privileges were not
required for their current jobs. In addition, the system creates logs that track changes
made by system administrators, including special privileges; the logs are not subject to
routine, periodic review.

Recommendations

We recommend that BIS:
   1. 	 establish a policy defining “inactive” status with respect to individual accounts and
        requiring the periodic review and deletion of such accounts;
   2. 	 establish a policy defining “inactive” status with respect to generic accounts and
        requiring the periodic review and deletion of such accounts;



                                              7

    3. 	 establish a password expiration requirement for generic accounts other than those
         that are exclusively system-to-system access.
    4. 	 review global system settings and make changes as necessary to ensure
         compliance with Internal Revenue Service requirements;
    5. implement an annual review of all special privileges;
    6. maintain documentation to support changes to special privileges; and
    7. 	 require periodic review of the logs that record changes made by system
         administrators.

Management’s Response

Management concurs with the OIG’s findings and plans to implement either the
recommended corrective action or an appropriate alternative.

The full text of the Chief Information Officer’s response is included as Appendix II to this
report.


Self-Assessment Not Performed

Security self-assessments were not performed during FY 2004 for the nine RRB systems
which contain sensitive information.

FISMA requires annual evaluations of Federal information security programs. OMB has
issued guidance regarding the extent of the annual reviews which are dependent upon an
evaluation of risk and the comprehensiveness of last year’s review. At a minimum, the
NIST self-assessment tool (or an equivalent) should be used.

The OIG evaluated the RRB’s FY 2002 self-assessment process and reported that the
process was not effective in assessing the current status of the RRB’s security program as
a basis for future improvement.5 At that time, the OIG recommended that BIS take action
to ensure that the agency’s self-assessment process is complete, credible and
comprehensive with respect to NIST objectives, elements, and techniques; and provides a
consistent basis for assessing changes in the agency’s security status from year to year.

Although the RRB implemented the NIST self-assessment methodology during FY 2003,
the previously recommended corrective actions have not yet been completed and gaps in
the collection of data will impede the overall effectiveness of the improvement process.
No further recommendations are being offered at this time.




5
“Evaluation of the Self-Assessment Process for Information System Security,” December 27, 2002, OIG
Report #03-02.

                                                  8

Computer Security Plans

The computer security plan for payment of RUIA benefits, a major application system,
does not comply with OMB and NIST requirements. OMB and NIST have established
basic requirements for preparation and maintenance of system security plans including a
description of the system environment and the controls in place.

When the Office of Programs evaluated the computer security plan for payment of RUIA
benefits in March 2004, they determined that no changes were required from the previous
version which had been prepared May 2002. That determination did not include
consideration of a web based, public access component system that went into production
later in March 2004.

Recommendation

We recommend that:

   8. 	 the Office of Programs update the computer security plan for the major application,
       payment of RUIA benefits, as necessary, to ensure completeness.

Management’s Response

Management agrees with the recommendation and will be incorporating references to the
new RUIAnet system as appropriate.

The full text of the Office of Program’s response is included as Appendix III to this report.


Acceptance of Systems Development Projects

Formal acceptance of systems development projects does not require the signature of a
senior agency official with budget authority.

OMB Circular A-130, Appendix III requires pre-implementation security authorization of
new systems by a management official with responsibility for the organization supported
by the system. NIST also requires authorization of information systems to be given by a
senior management official. Management’s authorization should be specific as to
acceptance of security-related risk.

Within the RRB, user organizations accept and authorize new systems and system
modifications using RRB FORM G-872 “Sign Off Sheet” which is typically executed by
user analysts and managers below the level of “Senior Agency Official.”




                                              9

In FY 2003, the OIG recommended that the RRB implement a formal certification and
accreditation process that would place the acceptance of system security risk with a higher
level of management.6 The agency rejected that recommendation because NIST
guidance requiring such a process had not yet been finalized.

Recommendation

We recommend that:

    9. BIS implement a NIST compliant certification and accreditation program.

Management’s Response

Management concurs with the recommendation and will modify and/or develop system
acceptance and authorization procedures for new systems and major system modifcations
in accordance with OMB Circular A-130, Appendix III and NIST Special Publication 800-
37, “Guide for the Security Certification and Accreditation of Federal Information Systems.”

The full text of the Chief Information Officer’s response is included as Appendix II to this
report.




6
 “Review of the Systems Development Life Cycle for End-User Computing,” September 8, 2003, OIG Report
#03-10.

                                                 10 

                                                                                                                        Appendix I
               SUMMARY OF AUDIT RECOMMENDATIONS PERTAINING TO INFORMATION SECURITY
                                       As of March 31, 2004

                                                                                     RECOMMENDATIONS FOR CORRECTIVE ACTION

                                                                          REPORT
                                                                           DATE       OFFERED     REJECTED    IMPLEMENTED
  National
  Security     Information Systems Security Assessment Report             06/28/00      19            5            11
  Agency
OIG Report     Review of RRB’s Compliance with the Critical
                                                                          08/09/00       2            -             2
  #00-13       Infrastructure Assurance Program

OIG Report     Review of Document Imaging Railroad Unemployment
                                                                          11/17/00       3            -             2
 # 01-01       Insurance Act Programs

  Blackbird
               Site Security Assessment                                   07/20/01      12            2             9
Technologies

  Blackbird
               Security Controls Analysis                                 08/17/01      38            3            32
Technologies

OIG Report     Review of Information Security at the Railroad
                                                                          02/05/02      28            -            15
  #02-04       Retirement Board
               Review of the RRB’s Controls Over the Access,
OIG Report
               Disclosure, and Use of Social Security Numbers by          08/26/02       1            -             1
 # 02-11
               Third Parties
OIG Report     Fiscal Year 2002 Evaluation of Information Security at
                                                                          08/27/02       3            -             2
 # 02-12       the Railroad Retirement Board

OIG Report     Evaluation of the Self-Assessment Process for
                                                                          12/27/02       4            -             -
  #03-02       Information System Security

OIG Report     Evaluation of the RRB E-Government Initiative: RUIA
                                                                          12/27/02       9            -             8
 # 03-03       Contribution Internet Reporting and Payment
OIG Report     Review of the Railroad Retirement Board’s
 # 03-09       PIN/Password System for On-Line Authentication             09/08/03       3            -             -




                                                                   11 

                                                                                                                      Appendix I
             SUMMARY OF AUDIT RECOMMENDATIONS PERTAINING TO INFORMATION SECURITY
                                     As of March 31, 2004

                                                                                   RECOMMENDATIONS FOR CORRECTIVE ACTION

                                                                        REPORT
                                                                         DATE       OFFERED     REJECTED    IMPLEMENTED
OIG Report   Review of the Systems Development Life Cycle for
 # 03-10     End-User Computing                                         09/08/03       7            -             -

OIG Report   Fiscal Year 2003 Evaluation of Information Security at
 # 03-11     the Railroad Retirement Board                              09/15/03       3            1             2


                                                                                     =====        =====         =====
                                                                                      132           11            84




                                                                 12 

